Bob Ferguson

ATTORNEY GENERAL OF WASHINGTON
Solicitor General Division
PO Box 40100 • Olympia WA 98504-0100 • (360) 753-6200
May 7, 2021
The Honorable Scott S. Harris
Clerk of the Supreme Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Bradley Boardman, et al. v. Jay R. Inslee, Governor of the State of Washington, et al.
No. 20-1334

Dear Mr. Harris:
I am counsel of record for respondents Jay Inslee, Governor of the State of Washington;
Robert Hines, director of the Washington Department of Social and Health Services; and
Ross Hunter, secretary of the Washington Department of Children, Youth, and Families, in the
above-captioned case. A response to the cert petition, requested by the Court, is currently due
June 1, 2021.
Pursuant to Rule 30.4, Washington requests a 30-day extension to file a brief in opposition, to
July 1, 2021. I have communicated with counsel for petitioners and intervenors and neither
object to the extension.
The primary reason for this request is to accommodate other concurrent deadlines, particularly an
oral argument and briefing in matters before the Washington Supreme Court. I am currently
scheduled to argue in the Washington Supreme Court on May 25, 2021, in Washington Bankers
Association v. Washington Department of Revenue, No. 98760-2. Preparing for that argument
will require many hours on top of my regular workload in the next few weeks, preventing me
from spending the necessary time on this case until after the argument. In addition, my
co-counsel for this matter and I have significant briefing responsibilities for other matters at the
Washington Supreme Court during May and early June.
The COVID-19 outbreak also continues to place additional and urgent advice and litigation
responsibilities on our office, especially our small Solicitor General Division. This workload
includes cases in both the Ninth Circuit and Washington Supreme Court challenging various
aspects of the State’s response to the COVID crisis. This additional work is especially
challenging given the logistical difficulties of continuing to operate under stay-at-home orders,
particularly for those, like me, with young children whose school and childcare schedules have
been disrupted and who are at home more than normal.

ATTORNEY GENERAL OF WASHINGTON

The Honorable Scott S. Harris
May 7, 2021
Page 2

Specific aspects of this case also support our request. In particular, our need to coordinate with
intervenors to avoid redundancy, and our need to read and respond to over a dozen amicus briefs
supporting certiorari, will require extra time. Additionally, given that the law challenged in this
case passed in 2016 and has been in effect ever since, there is no particular urgency to this
petition or potential for harm from this small delay.
Thank you for your consideration of this request.
Sincerely,
Noah Guzzo
Purcell

Digitally signed by Noah Guzzo
Purcell
Date: 2021.05.07 07:39:53
-07'00'

Noah Purcell
Solicitor General
(360) 753-6245
cc:

Paul Clement, Counsel for Petitioners
Gregory J. Wong, Counsel for Campaign to Prevent Fraud and Protect Seniors

